No. 21-10

In the Supreme Court of the United States
LORI BRAUN, AS ADMINISTRATRIX OF THE ESTATE OF
CASSANDRA BRAUN, DECEASED, INDIVIDUALLY AND ON
BEHALF OF ALL WRONGFUL DEATH BENEFICIARIES OF

CASSANDRA BRAUN,
Petitioner,
v.
BRIAN RAY BURKE, ET AL.,
Respondents.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Brief in Opposition
complies with the word limits of Supreme Court Rule 33.1(g)(ii). The Brief in Opposition contains 3,317 words, excluding the sections excluded by Supreme Court Rule
33.1(d).
/S/ NICHOLAS J. BRONNI
NICHOLAS J. BRONNI
Arkansas Solicitor General
Counsel of Record
OFFICE OF THE ARKANSAS
ATTORNEY GENERAL
323 Center Street, Suite 200
Little Rock, Arkansas 72201
(501) 682-8090
Nicholas.Bronni@arkansasag.gov

